                                         U.S. DEPARTMENT OF
                              HOUSING AND URBAN DEVELOPMENT
                                     OFFICE OF INSPECTOR GENERAL



                                            October 18, 2012


                                                                        MEMORANDUM NO:
                                                                             2013-IE-0801

Memorandum
TO:           Lisa Danzig
              Special Assistant, X


              //signed//
FROM:         Donna M. Hawkins
              Acting Director, GAH

SUBJECT:      American Recovery and Reinvestment Act Lessons Learned Initiative



                                         SUMMARY

In response to a request from the Recovery Accountability and Transparency Board, we gathered
and documented information from the U.S. Department of Housing and Urban Development
(HUD) regarding its lessons learned from the implementation of the American Recovery and
Reinvestment Act of 2009. This initiative was led by the U.S. Department of Interior, Office of
Inspector General (OIG).

The objective of the initiative was to identify which actions, processes, and mechanisms have
been beneficial or posed challenges to agencies and their respective OIGs in meeting the
requirements of the Recovery Act. Central to the review were issues in the following areas:
preaward processes associated with Recovery Act funding; outreach, education, and technical
assistance provided to recipients; performance measures; and oversight. A consolidated report
summarizing the responses of the various participating agencies is planned for issuance in the
first quarter of fiscal year 2013.

This memorandum highlights the results we obtained from this initiative. Specifically, we
identified new monitoring tools and initiatives that HUD developed to monitor Recovery Act-
funded programs as well as obstacles and challenges that HUD encountered.

                                       BACKGROUND
The Recovery Act was passed in February 2009 with the following stated purposes:

       1. To preserve and create jobs and promote economic recovery;
       2. To assist those most impacted by the recession;
       3. To provide investments needed to increase economic efficiency by spurring
          technological advances in science and health;
       4. To invest in transportation, environmental protection, and other infrastructure that
          will provide long-term economic benefits; and
       5. To stabilize State and local government budgets to minimize and avoid reductions in
          essential services and counterproductive State and local tax increases.

This legislation established the Recovery Accountability and Transparency Board, which was
charged with coordinating and conducting oversight to prevent fraud, waste, and abuse. The
Board consists of a chairperson and 11 inspectors general from various Federal agencies. The
Recovery Act provided $13.61 billion for nine programs administered by HUD. The table below
identifies the specific funding for the nine program areas:

     Program               Area                      Purpose                    Funding

Office of Public and   Public Housing Energy-efficient modernization        $4,000,000,000
Indian Housing         Capital Fund   and renovation of the Nation’s
                                      public housing inventory
Office of Public and   Native         Energy-efficient modernization        $510,000,000
Indian Housing         American       and renovation of housing
                       Housing Block maintained by Native American
                       Grant          housing programs
Office of              Community      Rehabilitating affordable housing     $1,000,000,000
Community              Development    and improving key public facilities
Planning and           Block Grant    – stabilizing communities and
Development                           creating jobs locally
Office of              Neighborhood Purchasing and rehabilitating           $2,000,000,000
Community              Stabilization  foreclosed-upon, vacant properties
Planning and           Program
Development
Office of              Homelessness     Preventing homelessness and         $1,500,000,000
Community              Prevention       enabling the rapid rehousing of
Planning and           Fund             homeless families and individuals
Development
Office of              HOME             Accelerating the production and     $2,250,000,000
Community              Investment       preservation of tens of thousands
Planning and           Partnerships     of units of affordable housing
Development            (Tax Credits)
Office of              Assisted         Enabling owners to undertake        $2,000,000,000
Multifamily Housing    Housing          much needed project
                       Stability        improvements to maintain the
                                        quality of affordable housing



                                               2
Office of           Assisted             Energy-efficient modernization        $250,000,000
Multifamily Housing Housing              and renovation of HUD-sponsored
                    Energy               housing for low-income, elderly,
                    Retrofit             and disabled persons
Office of Healthy                        Lead-based paint hazard reduction     $100,000,000
Homes and Lead                           and abatement activities
Hazard Control
                                                                               $13,610,000,000

The Recovery Act also provided $15 million to HUD OIG for salaries and expenses to carry out
audit and investigative activities related to HUD’s Recovery Act spending.

                                   RESULTS OF REVIEW

An important component of the interagency initiative consisted of questionnaires submitted to
HUD program managers responsible for monitoring Recovery Act spending. The questionnaires
were also submitted to OIG managers responsible for implementing Recovery Act-related audit
and investigative activities. Highlights of the responses that we received from HUD and HUD
OIG managers to these Recovery Act lessons learned questionnaires are presented below.

HUD Program Offices Developed Effective Recovery Act Mechanisms and Processes
According to program managers who responded to the questionnaire, during the preaward and
award process, HUD implemented an unprecedented, close coordination between HUD
headquarters and regional offices with the active leadership of the HUD Secretary, Deputy
Secretary, and regional administrators. This coordination helped to mitigate impacts on ongoing
organizational responsibilities.

Managers from the program offices also noted that through the use of webinars and webcasts,
conferences, and in-person training sessions, HUD was able to conduct outreach sessions that
reached several hundred recipients to provide information and training on the Recovery Act
program.

Program managers noted that HUD developed two mechanisms that helped collect and analyze
Recovery Act-related performance data and improve HUD’s oversight of the Recovery Act
grants. The Recovery Act Management Performance System required public housing agencies
to report on planned and completed grant activities. According to these managers, this system
greatly improved HUD’s oversight of the Recovery Act grants and provided greater transparency
to the public. Another mechanism, Info Path/SharePoint, was used to apply a consistent
monitoring checklist across all field offices, update the monitoring checklist whenever necessary,
and track monitoring activity and potential grant deficiencies in real time. It was also used for
forms creation, data gathering, and documenting application reviews to help streamline the
application review procedure during the preaward and award process. InfoPath/SharePoint was
also used to build databases that made it easier to track and follow up on compliance issues.

In addition, the Office of Public and Indian Housing’s Office of Field Operations (OFO)
implemented two new initiatives intended to help monitor and oversee the use of Recovery Act


                                                3
funds in conjunction with the oversight of general public housing agency operations. First, OFO
developed the Public Housing Agency Recovery and Sustainability Initiative. This initiative
assigns teams of OFO program experts to provide technical assistance and additional oversight to
troubled housing agencies. These teams provide assistance aimed specifically at improving
agency management processes and local government oversight. Second, OFO developed the
Portfolio Management Tool. This tool provides a centralized location for OFO field staff to view
and analyze critical housing agency performance data. Most importantly, this tool allows OFO
to more quickly and efficiently identify agencies in need of technical assistance.

The program offices plan to continue using these new mechanisms and initiatives after expiration
of the Recovery Act programs.

HUD Managers Encountered Obstacles and Challenges in Implementing Recovery Act
Programs
Managers from each of the program offices queried responded that more advance notice of the
launch of Recovery Act programs would have allowed for better planning during the preaward
and award process. In particular, more advance notice would have allowed the hiring of
temporary staff, especially regarding the implementation of Recovery Act funds and monitoring
and oversight of the program. To mitigate this staffing issue, HUD program offices established
separate teams devoted specifically to the startup and implementation of Recovery Act programs.
The program offices also used college interns, presidential management fellows, and participants
in other career development and internship programs to meet short-term needs for additional
staff. They also provided credit hours or compensatory time when it was available. One
program office reemployed a retired annuitant with the institutional knowledge and expertise to
coordinate and integrate Recovery Act requirements with ongoing program activities.

More advance notice during the preaward and award process would have also allowed more time
to develop and provide program guidance to grantees before they carried out activities. Instead,
HUD had to issue guidance as grantees were implementing their programs.

Another challenge cited in the HUD managers’ responses was the limitation on staff time,
especially regarding monitoring and oversight. Grantees and HUD staff were required to
administer their regular programs in addition to implementing Recovery Act funding priorities
and meeting tight deadlines.

Also, according to these responses, job creation and retention reporting instructions provided by
the Federal Office of Management and Budget (OMB)1 were difficult for grantees to understand.
OMB’s update to the guidance2 confused grantees and had an adverse effect on the accuracy of
the data reported.

Managers from the program offices also responded that it would have been more efficient to use
the existing systems to report outcomes and outputs for Recovery Act-funded grants. They

1
  OMB Memorandum for the Heads of Executive Departments and Agencies, M-09-021, dated June 22, 2009,
provided initial guidance on the methodology for estimating and reporting job creation and retention.
2
  OMB Memorandum for the Heads of Executive Departments and Agencies, M-10-08, dated December 18, 2009,
provided updated job creation and retention guidance.



                                                   4
found that the existing reporting systems were generally more informative about the
effectiveness of HUD’s programs than the data captured by FederalReporting.gov.

OIG Did Not Identify Challenges in Implementing the Recovery Act
Neither the Office of Audit nor the Office of Investigation noted challenges in carrying out audit
or investigative activities related to HUD’s implementation of Recovery Act-funded programs.

The Office of Audit assigned the review of HUD’s front-end risk assessments to various
Regional offices. The Regional Office assigned also became the program expert for that area.
The Office of Audit wanted to ensure that HUD complied with its own guidance as well as
OMB’s guidelines for the Recovery Act. In addition, the Office of Audit used prior audits of
grantees to target capacity audits to determine whether grantees were capable of effectively
administering the large influx of funds. The capacity audits gave the Office of Audit the ability
to be proactive and recommend either reimbursement of Recovery Act funds due to lack of
capacity or enhanced monitoring by HUD.

OIG participated in several training and outreach sessions with Recovery Act recipients and
discussed the importance of conducting Recovery Act audits to prevent fraud, waste, and abuse
with members of the recipient community. These outreach efforts were conducted to educate
personnel of participating entities concerning programs and to ensure that fraud allegations were
reported to OIG.
                                     RECOMMENDATIONS

This memorandum is informational in nature and contains no recommendations.

                               METHODOLOGY AND SCOPE

We summarized key points pertaining to HUD that we obtained from an interagency initiative
that documented lessons learned from implementation of the Recovery Act.

We performed our work in support of this initiative at HUD and HUD OIG’s Washington, DC,
headquarters between March and August 2012. The review covered the period February 2009 to
May 2012.

To accomplish our objective on the interagency initiative, we

      Selected for review the 5 program areas that received the highest amount of Recovery
       Act funding. Those five program areas were

       Public Housing Capital Fund
       Tax Credit Assistance Program
       Community Development Block Grant
       Homelessness Prevention and Rapid Re-Housing Program
       Neighborhood Stabilization Program




                                                5
      Submitted the questions to each program area, allowing the Office of Strategic Planning
       and Management to be the point of contact, and compiled the responses.

      Submitted the questions to staff within OIG under the Offices of Audit and Investigation
       and compiled the responses.

      Reviewed financial data from the financial and activity report in Recovery.gov.

      Interviewed HUD OIG staff and HUD program staff.

      Entered information provided by program and OIG officials into the inter-OIG project
       SharePoint web site.

We conducted this work in accordance with the Quality Standards for Inspection and Evaluation,
issued by the Council of the Inspectors General on Integrity and Efficiency.




                                               6
